 OFFICE OF INSPECTOR GENERAL
CORPORATION FOR NATIONAL AND
     COMMUNITY SERVICE




        Pre-Audit Survey of
       Youth Life Foundation
    Grant Number 0 1SPHDCOOS

   OIG Audit Report Number 02-34
           July 26,2002




            Prepared by:

             CNCS OIG
       1201 New York Avenue
       Washington, DC 20525
                                               Pre-Audit Survey of
                                              Youth Life Foundation
                                           Grant Number 0 1SPHDCOOS

                                                    Table of Contents



OVERVIEW OF YOUTH LIFE FOUNDATION ...............................................................2

BACKGROUND OF YOUTH LIFE FOUNDATION ........................................................2

OBJECTIVES. SCOPE. AND METHODOLOGY .............................................................3

RESULTS ............................................................................................................................
                                                                                                                                 4
Office of Inspector General                                                                 CORPORATION
1201 New York Avenue, NW
                                                                                            FOR NATIONAL
Washington, DC 20525
                                                                                             SERVICE


   July 26,2002


   Peg Rosenberry, Director, Office of Grants Management
   Corporation for National and Community Service
   1201 New York Avenue
   Washington, DC 20525

   We performed a pre-audit survey of Youth Life Foundation, Grant Number
   OISPHDCOOS. The primary purpose of this survey was to provide a preliminary
   assessment of:

       The grant award and terms;
       Findings from the most recent A- 133 audit;
       Fiscal or program issues raised by CNCS site visits.

   We were also to report on the recommended scope of additional audit procedures to be
   performed at the Grantee.

   Overview of Youth Life Foundation

    The Youth Life Foundation (YLF) is a non-profit organization that opens doors of
    opportunity for boys and girls whose family lives and circumstances are limiting their
    chances to lead educated, moral, well-adjusted lives.

    Background

    The National and Community Service Trust Act of 1993, P.L. 103-82, which amended
    the National and Community Service Act of 1990, established the Corporation for
    National and Community Service.

    The Corporation, pursuant to the authority of the Act, awards grants and cooperative
    agreements to State Commissions, nonprofit entities, tribes and territories to assist in the
    creation of full and part time national and community service programs. Through these
    grantees, members perform service to meet the educational, human, environmental, and
    public safety needs throughout the nation, especially addressing those needs related to
    poverty. In return for this service, eligible members receive a stipend, accidental death
    and dismemberment insurance, personal liability insurance and automobile insurance,
    free meals at host institutions and physical examinations.
The Youth Life Foundation is a not-for-profit organization established in 1988 by All-Pro
Washington Redskins cornerback Darrell Green. In 1999, with receipt of a major
contribution, an Endowment Fund was established to support the day-to-day operations of
the Foundation, operation of the Youth Life Learning Centers (YLLC), and the National
Youth Life Foundation Training Institute. The YLLC was launched in 1993 as an after-
school, fall to summer program and is the centerpiece of the Foundation. The National
Training Institute (NTI) was also added to teach others how to establish a Youth Life
Foundation, and how to operate Youth Life Learning Centers. People who go to the NTI
have a sincere desire to serve youth through Youth Life Learning Centers based on
academic excellence and moral leadership. NTI's goal is to replicate Youth Life Learning
Centers within the Washington metropolitan area, and assist others to carry the model to
major cities throughout the country.

Objectives, Scope, and Methodology

The scope of this engagement was to assess the use of grant funds, site visit information,
and systems and procedures in place at the Corporation's headquarters to monitor the
Grantee's fiscal activity. The survey's primary purpose was to preliminarily assess:

   The amount, term and grant provisions;
   The results of A- 133 audits;
   Results of CNCS site visits.

We were also to report on the recommended scope of additional audit procedures to be
performed at the Grantee.

Our survey included the following procedures:

    Reviewing the grant award, its provisions, the detailed grant proposal and budget;

    Reviewing OMB Circular A- 133 reports and;

    Obtaining information from CNCS site visit reports and from discussion with CNCS
    Grants Management Office.

Our procedures were performed in accordance with Government Auditing Standards
issued by the Comptroller General of the United States. We were not engaged to, and did
not perform, an audit of any financial statements, and the procedures described above
were not sufficient to express an opinion on the controls at the Grantee, or on its
compliance with applicable laws, regulations, contracts and grants, or the allowability of
grant costs incurred. Accordingly, we do not express an opinion on any such financial
statements, or on the Grantee's controls or compliance. Had we performed additional
procedures, other matters might have come to our attention that would have been
reported.
Results

Based on the results of the limited procedures performed, we will proceed with an
incurred cost audit of grant. The project period is January 1,2002 through
December 3 1,2002. The audit will take place when the final Financial Status Report is
available. The decision to audit is based on the following:

   This is the Grantee's first federal grant. The amount awarded for calendar year 2002
   is $l,5OO,OOO.

   The Grantee has not received federal grants in the recent past and therefore there is no
   A-133 audit for our review. We have no audited information on the Grantee's
   internal or compliance controls.

   The recommendations made after the February 2002 Site Visit.

This report is intended solely for the use of the Office of Inspector General and the
Corporation for National and Community Service.




Acting Inspector General
Corporation for National and Community Service
Washington, D.C.




Copy to:

Wendy Zenker, COO
Gary Kowalczyk, Director, Planning & Program Integration
Dana Rodgers, Program Officer
